Tyndall Federal Credit Union
P.O. Box 59760
Panama City, FL 32412-0760

CREDIT CARD AGREEMENT

850-769-9999 (888-896-3255, toll-free)
tyndall.org
IN THIS AGREEMENT, "YOU" AND "YOUR" MEAN ANY PERSON WHO ACCEPTS THIS AGREEMENT OR USES THE CARD. THE "CARD" MEANS ANY CREDIT CARD ISSUED TO YOU OR THOSE
DESIGNATED BY YOU UNDER THE TERMS OF THIS AGREEMENT. "WE", "US", "OUR" AND THE "CREDIT UNION" MEANS TYNDALL FEDERAL CREDIT UNION OR ITS SUCCESSORS. BY USING YOUR
CARD, YOU AGREE TO ALL OF THE TERMS AND CONDITIONS SET FORTH HEREIN.

THE GRANTING OF THIS SECURITY INTEREST IS A CONDITION FOR
THE ISSUANCE OF CREDIT UNDER THIS AGREEMENT.
YOU SPECIFICALLY GRANT US A CONSENSUAL SECURITY
INTEREST IN ALL INDIVIDUAL AND JOINT ACCOUNTS YOU HAVE
WITH US NOW AND IN THE FUTURE TO SECURE REPAYMENT OF
CREDIT EXTENDED UNDER THIS AGREEMENT. YOU ALSO AGREE
THAT WE HAVE SIMILAR STATUTORY LIEN RIGHTS UNDER STATE
AND/OR FEDERAL LAW. IF YOU ARE IN DEFAULT, WE CAN APPLY
YOUR SHARES TO THE AMOUNT YOU OWE.
Shares and deposits in an Individual Retirement Account or any other
account that would lose special tax treatment under state or federal law if
given are not subject to this security interest.
If you have other loans with us, collateral securing such loans will also
secure your obligations under this Agreement, unless that other collateral
is your principal residence or non-purchase money household goods.

Using Your Card. You can purchase or lease goods and services from any
merchant who honors your Card, and you may obtain cash advances from
financial institutions and ATM machines that accept the Card, up to your
maximum credit limit. You agree not to present your Card or obtain a cash
advance for any extension of credit in excess of your available credit limit;
however, if you do exceed your credit limit, you agree to make immediate
payment sufficient to bring the balance below the credit limit. Certain
purchases and cash advances require authorization prior to completion of the
transaction. In some cases, you may be asked to provide identification. If our
system is not working, we may not be able to authorize a transaction, even
though you have sufficient credit available. Also, for security reasons, we may
block the use of your Card in certain countries or geographic areas. We will
have no liability to you or others if any of these events occur.
Personal Identification Number (PIN). We
may issue a Personal
Identification Number (PIN) for use with your Card. This PIN is confidential
and should not be disclosed to anyone. You may use your PIN and your Card
to access your account, and all sums advanced will be added to your account
balance. In the event a use of your PIN constitutes an Electronic Funds
Transfer, the terms and conditions of your Electronic Funds Transfer
Agreement may affect your rights.
Promise To Pay. You promise to pay us in U.S. dollars for (a) all purchases,
cash advances, and balance transfers made by you or anyone whom you
authorize to use the Card; (b) all Interest Charges and all other charges or
fees; (c) collection costs and attorney's fees as permitted by applicable law,
and any costs incurred in the recovery of the Card; and (d) credit in excess of
your credit limit that we may extend to you.
Illegal Transactions. You agree that your Card and account will not be used
to make or facilitate any illegal transactions as determined by applicable law;
and that any such use will constitute an event of default under this Agreement.
We may decline any transaction that we believe to be illegal under applicable
law, including but not limited to any transaction involving or relating to any
gambling activity. You agree that we will have no liability or responsibility for
any such use by you or any authorized user(s); or for declining any such
transaction. You further agree to indemnify and hold us harmless from any
suits, liability, damages or adverse action of any kind that results directly or
indirectly from such illegal use. You promise to pay us any and all amounts
owing on your Card for any transactions made by you, even if the transaction
is determined to be illegal.
Joint Accounts. Each of you will be responsible, jointly and severally, for the
repayment of amounts owed, regardless of who initiated any transaction
under the account.

9011 LASER FPDF FI18816 Rev 5-2019

Others Using Your Account. If you allow anyone else to use your account,
you will be liable for all credit extended to such persons. You promise to pay
for all purchases and advances made by anyone you authorize to use your
account, whether or not you notify us that he or she will be using it. If
someone else is authorized to use your account and you want to end that
person's privilege, you must notify us in writing, and if he or she has a Card,
you must return that Card with your written notice for it to be effective.
Ownership of Card. Your Card remains our property and may be cancelled
by us at any time without notice. You agree to surrender your Card and to
discontinue use of the account immediately upon our request.
Interest Charges. You agree to pay interest at the rate(s) disclosed to you at
the time you open your account and as may be changed from time to time in
accordance with applicable law. Average Daily Balance including new
transactions: Interest Charges will accrue on your average daily balance
outstanding during the month. To get the average daily balance, we take the
beginning balance each day, add any new purchases, cash advances,
balance transfers or other advances, and subtract any payments, unpaid
interest charges, and unpaid late charges. This gives us the daily balance.
Then, we add up all the daily balances for the billing cycle and divide that by
the number of days in the billing cycle. We then multiply that by the periodic
rate corresponding to the Annual Percentage Rate on your account. If you
have different rates for purchases, cash advances or balance transfers,
separate average daily balances for each will be calculated and the
appropriate periodic rate is then applied to each.
Grace Period on Purchases Only: You can avoid Interest Charges on
purchases by paying the full amount of your statement's new balance by the
date on which the payment is due. Otherwise, the new balance of your
account, and subsequent advances from the date they are posted to the
account, will be subject to an Interest Charge. You cannot avoid Interest
Charges on cash advances and balance transfers; even if you pay the entire
cash advance balance or balance transfer balance by the payment due date,
you will incur the Interest Charges accrued from the date the cash advance or
balance transfer is posted to your account.
Fees. In addition to the Interest Charges set forth above, you agree to also
pay any and all fees that you incur as disclosed to you on your Truth-inLending Statement or similar disclosures (as may be amended from time to
time), or as disclosed to you during the term of your Card.
If Your Card is Lost or Stolen or if an Unauthorized Use Occurs. You
agree to notify us immediately if your Card is ever lost or stolen or if an
unauthorized use may have occurred. "Unauthorized use" means the use of
the Card by someone other than you who does not have actual, implied or
apparent authority for such use, and from which you receive no benefit. The
telephone number to call is 850-769-9999 (888-896-3255, toll free). You agree
to follow up your call with notice in writing to us at: Tyndall Federal Credit
Union, P.O. Box 59760, Panama City, FL 32412-0760. You also agree to
assist us in determining the facts, circumstances and other pertinent
information relating to any loss, theft or possible unauthorized use of your
Card and comply with such procedures as we may require in connection with
our investigation. You will be liable for any unauthorized use only if we can
prove that you were negligent in your use or handling of your Card, or if we
can prove that you used your Card fraudulently.
Minimum Payment Due; Crediting of Payments. Payments are due in the
amount and on the date disclosed on your billing statement. If your payment
is received by us on a business day at the address and by the time
designated on the billing statement, it will be credited to your account no later
than the date of receipt. If payment is made at any location other than the
address designated on the periodic statement, credit for such payment may
be delayed up to five (5) days. Payments will be applied in any order we
determine, subject to applicable law.

page 1 of 3

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

IN THIS AGREEMENT, "YOU" AND "YOUR" MEAN ANY PERSON WHO ACCEPTS THIS AGREEMENT OR USES THE CARD. THE "CARD" MEANS ANY CREDIT CARD ISSUED TO YOU OR THOSE
DESIGNATED BY YOU UNDER THE TERMS OF THIS AGREEMENT. "WE", "US", "OUR" AND THE "CREDIT UNION" MEANS TYNDALL FEDERAL CREDIT UNION OR ITS SUCCESSORS. BY USING YOUR
CARD, YOU AGREE TO ALL OF THE TERMS AND CONDITIONS SET FORTH HEREIN.

Default; Acceleration; Credit Suspension; Collection Costs. You will be in
default if: (1) you fail to make any payment on time; (2) if you fail to keep any
promises you have made under this Agreement or under other Agreements
you have with us; (3) if you die; (4) if you file a petition in bankruptcy or have a
bankruptcy petition filed against you, or if you become involved in any
insolvency, receivership or custodial proceeding; (5) if anyone attempts to
take any of your funds held by us via legal process or if you have a judgment
or tax lien filed against you; (6) if you make any false, inaccurate, or
misleading statements in any credit application or credit update; or (7) if we, in
good faith, believe that your ability to repay what you owe is or soon will be
impaired, or that you are unwilling to make your payments.
If you are in default, we have the right to demand immediate payment of your
full account balance without giving you notice. If immediate payment is
demanded, you agree to continue paying interest charges and fees until what
you owe has been paid, and any shares that were given as security for your
account may be applied towards what you owe. You agree to pay all
reasonable costs of collection, including court costs and attorney's fees, and
any costs incurred in the recovery of the Card, subject to applicable law. Even
if your unpaid balance is less than your credit limit, you will have no credit
available during any time that any aspect of your account is in default.
Suspension of electronic services and access to share or deposit
accounts. Subject to applicable law, we may suspend some or all electronic
services and access to your checking or other account(s) if you become
delinquent on any of your credit card or deposit obligations to us or you cause
a loss to us. We shall not be liable to you in any regard in connection with
such suspension of services.
Additional Benefits/Card Enhancements. We may from time to time offer
additional services to your Account at no additional cost to you. You
understand that we are not obligated to offer such services and may withdraw
or change them at any time.
Convenience Checks. We may, at our discretion, issue checks to you which
may be used for any purpose other than making a payment for credit to your
account. By signing such check, you authorize us to pay the item for the
amount indicated and post such amount as a cash advance to your account.
We do not have to pay any item which would cause the outstanding balance
in your account to exceed your credit limit.
Credit Information. We may from time to time request personal information
from you or obtain credit reports from the credit reporting agencies for the
purpose of updating your credit status. Your failure to provide such information
when requested by us may result in suspension of credit privileges under this
Agreement, including your ability to obtain any future advances by any
means. You authorize us to investigate your credit standing when opening or
reviewing your account. You authorize us to disclose information regarding
your account to credit bureau and creditors who inquire about your credit
standing.
Foreign Transactions; Currency Conversion. Purchases
and cash
advances made in foreign currencies will be billed to you in U.S. dollars. The
conversion rate in dollars will be a rate selected by the card company from a
range of rates available in wholesale currency markets for the applicable
central processing date, which rate may vary from the rate the card company
itself receives, or the government-mandated rate in effect for the applicable
central processing date in each instance. All transactions processed outside
of the United States (which may include internet transactions) will be charged
a foreign transaction fee in the amount disclosed on your Truth-in-Lending
Statement (as amended from time to time).
Termination; Change-in-Terms. We may, by written notice, terminate this
Agreement at any time, subject to applicable law. You may terminate this
Agreement by written notice. Termination by either party shall not affect your
obligation to repay any balance on your account resulting from use of the
Card as well as Interest Charges and fees incurred. We may change the
terms of this Agreement, including the method of calculating the periodic rate,
at any time, by written notice, subject to applicable law. Use of the Card
constitutes agreement and acceptance of any change in terms, unless
applicable law requires otherwise. Our failure to exercise any of our rights or
to take any action shall not constitute a waiver of those rights, or an
amendment or change in any of the terms of this Agreement.
9011 LASER FPDF FI18816 Rev 5-2019

Late or Partial Payments. Any payment that delays the reduction of your
balance will increase your total interest costs. Partial payments or
prepayments will not delay your next scheduled payment - you will still need
to make the minimum scheduled payment by the next scheduled due date to
keep your account current. We may accept late payments, partial payments,
checks or money orders marked "payment in full" and such action shall not
constitute final settlement of your account or a waiver or forgiveness of any
amounts owing under this Agreement.
Skip Payment: If we make a skip payment option available, you may skip
making your payment(s) for certain month(s). If you choose this option,
interest will continue to accrue, but no late payment charges will be imposed
during the skip period. All credit terms applicable immediately prior to the skip
period will again apply once the skip period has expired.
Enforcement. We do not lose our rights under this or any related agreement
if we delay enforcing them. If any provision of this or any related agreement is
determined to be unenforceable or invalid, all other provisions remain in full
force and effect.
Returns and Adjustments. Merchants and others who honor the Card may
give credit for returns or adjustments, and they will do so by submitting a
credit slip which will be posted to your account. If your credits and payments
exceed what you owe us, the amount will be applied against future purchases
and cash advances. If the credit balance amount is $1 or more, it will be
refunded upon your written or verbal request at the next statement cycle.
Plan Merchant Disputes. We are not responsible for the refusal of any plan
merchant or financial institution to honor your Card. Also, we are not
responsible for goods or services that you purchase with the Card unless: (a)
your purchase was made in response to an advertisement we sent or
participated in sending you; or (b) your purchase cost more than $50 and was
made from a plan merchant in your state or within 100 miles of your home;
and only if you have made a good faith attempt, but have been unable to
obtain satisfaction from the plan merchant. You must resolve all other
disputes directly with the plan merchant. We do not warrant any merchandise
or services purchased by you with the Card.
Statements and Notices. Statements and notices will be mailed to you at the
most recent postal address or e-mail address (if you have elected to receive
such documents via electronic means) you have given us. Notice sent to any
one of you will be considered notice to all.
Notification of Address Change. You will notify us promptly if you change
your address for any reason. In order to prevent identity theft, your identity
may need to be verified before we act upon the notification.
Copy Received. You acknowledge that you have received a copy of this
Agreement.
Governing Law. This Agreement shall be construed under federal law and
state law in the state in which we are primarily located, and the venue shall be
located in the county and state in which we are primarily located. Operating
regulations of Visa may also apply. This Agreement is the contract that applies
to all transactions even though the sales, cash advance, convenience check,
credit or other slips you sign or receive may contain different terms.
NOTICE TO UTAH BORROWERS: This written agreement is a final
expression of the agreement between you and the Credit Union. This written
agreement may not be contradicted by evidence of any oral agreement.
Releasing Person from Account Liability: We may release a Cardholder,
Authorized User, or Other User from liability at any time and in our sole
discretion. WE are not bound by any terms of a divorce decree including
those that allocate liability for the Account between ex-spouses.

You agree that the credit card agreement and Truth-in-Lending Disclosure
supersedes the provisions of the Xpress Permanent Loan Agreement, that
collateral offered as security or obtained pursuant to the Xpress Permanent
Loan Agreement shall be collateral under the credit card agreement and
Truth-in-Lending Disclosure, and that all existing subaccount balances of the
Xpress Permanent Loan Agreement shall become subaccount balances
under the Credit Card Agreement and Truth-in-Lending Disclosure (at the
existing rate of interest being charged and at the existing payment status).

page 2 of 3

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

IMPORTANT DISCLOSURES FOR ACTIVE MEMBERS OF THE MILITARY AND THEIR DEPENDENTS:
The following applies if at the time this loan is made you are an active member of the military or a dependent (as those terms are defined in the Military Lending Act (MLA), 10 U.S.C. 987 and
its implementing regulations (“MLA”)), and (a) your loan is unsecured or secured by personal property or a vehicle that you did not purchase with the proceeds of the loan; or (b) it is otherwise
determined by law that the MLA applies to your loan. If this loan is a revolving line of credit or credit card, the MLA ceases to apply at any time during which you are not a member of the
military or a dependent (as defined in the MLA).
1. NOTICE: Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of consumer credit. In general, the cost of consumer
credit to a member of the Armed Forces and his or her dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction
or account: the costs associated with credit insurance premiums or debt protection fees; fees for ancillary products sold in connection with the credit transaction; any application fee
charged (other than certain application fees for specified credit transactions or accounts); and any participation fee charged (other than certain participation fees for a credit card account).
To receive this notice verbally, please call 1-888-896-3255 during our normal business hours.
2. This loan will not be secured by a consensual lien on shares or deposits in any of your accounts unless you agree to establish an account in connection with this loan (“Secured
Account”). Only funds deposited into the Secured Account after the loan is made will secure this loan. Any cross-collateralization provision contained in your loan or account documents
will not apply to the Secured Account or your other share or deposit accounts for any loan subject to the Military Lending Act.
However, we reserve our statutory lien rights and rights to set-off or administrative freeze under federal or state law, which gives us the right to apply the sums in the Secured Account or
any other account(s) you have with us to satisfy your obligations under this loan.
3. Any reference in this consumer credit contract to the following are hereby inapplicable to your loan: (a) Mandatory arbitration; (b) Any requirement(s) to waive your rights to legal recourse
under any applicable state or federal law; (c) Any demands or requirements construed as unreasonable notice from you in order to exercise your legal rights; or (d) Prepayment penalties.
4. Any provisions in your consumer credit contract, loan, security, or account agreements that are determined to be inconsistent with or contradictory to these disclosures or the MLA (as
they may be changed or amended from time to time) are inapplicable with regard to this loan. However, all other terms and conditions of the consumer credit contract shall remain in full
force and effect.

YOUR BILLING RIGHTS - KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit
Billing Act.
What To Do If You Find A Mistake On Your Statement

After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or
other fees related to that amount.

• If we do not believe there was a mistake: You will have to pay the amount in question,
along with applicable interest and fees. We will send you a statement of the amount you
owe and the date payment is due. We may then report you as delinquent if you do not pay
the amount we think you owe.
In your letter, give us the following information:
If you receive our explanation but still believe your bill is wrong, you must write to us within 10
1. Your name and account number.
days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent
2. The dollar amount of the suspected error.
3. If you think there is an error on your bill, describe what you believe is wrong and why you without also reporting that you are questioning your bill. We must tell you the name of anyone
believe it is a mistake.
to whom we reported you as delinquent, and we must let those organizations know when the
You must contact us:
matter has been settled between us.
• Within 60 days after the error appeared on your statement.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you
• At least 3 business days before an automated payment is scheduled, if you want to stop
question even if your bill is correct.
payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do, we are not Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you think there is an error on your statement, write to us at the address(es) listed on your
statement.

required to investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter

If you are dissatisfied with the goods or services that you have purchased with your credit card,
and you have tried in good faith to correct the problem with the merchant, you may have the
right not to pay the remaining amount due on the purchase.

When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will
also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you
why we believe the bill is correct.
While we investigate whether or not there has been an error:

To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your
current mailing address, and the purchase price must have been more than $50. (Note:
Neither of these are necessary if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash
advances from an ATM or with a check that accesses your credit card account do not
qualify.
3. You must not yet have fully paid for the purchase.

• We cannot try to collect the amount in question, or report you as delinquent on that
amount.
• The charge in question may remain on your statement, and we may continue to charge you
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in
interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the writing at the address(es) listed on your statement.
remainder of your balance.
While we investigate, the same rules apply to the disputed amount as discussed above. After
• We can apply any unpaid amount against your credit limit.
we finish our investigation, we will tell you our decision. At that point, if we think you owe an
amount and you do not pay, we may report you as delinquent.

CONSENT TO CONTACT
You consent to receiving telephone calls and text messages from us and our third party debt collectors at any telephone number associated with your account, loans, or lines of credit, including
wireless telephone numbers (i.e., cell phone numbers) which could result in charges to you, in order for us to service your account or collect any amounts owed to us, excluding any contacts for
advertising and telemarketing purposes as prescribed by law. You further agree methods of contact may include use of pre-recorded or artificial voice messages, and/or use of an automatic
dialing device. You acknowledge you may withhold such consent by striking through this paragraph at the time of the signing of this Agreement or withdraw such consent by written notice to us at
Tyndall Federal Credit Union, P.O. Box 59760, Panama City, FL 32412-0760, by telephone at 850-769-9999 (888-896-3255, toll free), or by any other reasonable means. If you have provided or
provide a wireless telephone number(s) to us in connection with your accounts, loans, or lines of credit, or any of them, you represent and agree you are the wireless subscriber or customary user
with respect to the wireless telephone number(s) provided and have the authority to give this consent. Furthermore, you agree to notify us of any change to the wireless telephone number(s)
which you provide to us. You agree to indemnify us and our third-party debt collectors, and hold us and our third-party debt collectors harmless, from and against any and all losses, claims,
damages, liabilities, costs or expenses (including any attorneys' fees) that arise out your breach of any of the foregoing representations and agreements.
9011 LASER FPDF FI18816 Rev 5-2019

page 3 of 3

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

